             United States Department of the Interior
                             Office of Inspector General
                              Washington, D.C. 20240

                                                                          January 7, 2004




Memorandum

To:        Director, U.S. Geological Survey

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject: Management Issues Identified During the Audit of the U.S. Geological
         Survey’s Fiscal Year 2003 Balance Sheet (Report No. E-IN-GSV-0035-2004)

       We contracted with KPMG LLP (KPMG), an independent certified public
accounting firm, to audit the U.S. Geological Survey’s (USGS) balance sheet as of
September 30, 2003. In conjunction with its audit, KPMG noted certain matters
involving internal control and other operational matters that should be brought to
management’s attention. These matters, which are discussed in the attached letter, are in
addition to those reported in KPMG’s audit report on USGS’s balance sheet (Report No.
E-IN-GSV-0070-2003) and do not constitute reportable conditions as defined by the
American Institute of Certified Public Accountants.

       The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. If you have any questions
regarding KPMG’s letter, please contact me at (202) 208-5512.

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C.A.
App. 3) requires semiannual reporting to Congress on all audit reports issued, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our next semiannual report.

Attachment

cc:     Assistant Secretary for Water and Science
        Chief Financial Officer, U.S. Geological Survey
        Director, Office of Financial Management
        Deputy Chief for Financial Management, U.S. Geological Survey
        Audit Liaison Officer, Water and Science
        Audit Liaison Officer, U.S. Geological Survey
        Focus Leader for Management Control and Audit Followup,
         Office of Financial Management
